DOEF 1325.8
k08-93)
United States Government                                                          Department of Energy


memorandum
       DATE:   September 23,     2004                         Audit Report Number: OAS-L-04-23
   REPLY TO
    ATTN OF:   IG-32 (A03SR041)

   SUBJECT:    Audit of the National Nuclear Security Administration's Tritium Production Plan
        TO:    Administrator, National Nuclear Security Administration


               INTRODUCTION AND OBJECTIVE

               The Department of Energy's National Nuclear Security Administration (NNSA) is
               responsible for maintaining and enhancing the nation's nuclear weapons stockpile, of
               which tritium is a vital component. The tritium in weapon reservoirs must be
               periodically replaced due to decay. Since halting production in 1988, the Department
               has met its tritium requirements through a recycling process at the Savannah River
               Site (SRS). Additionally, per agreement with the Department of Defense, NNSA has
               maintained a five-year reserve of tritium.

               Nuclear weapons requirements are established in the Nuclear Weapon Stockpile Plan
               (Stockpile Plan) signed by the Secretary of Defense, the Secretary of Energy, and
               ultimately approved by the President of the United States. NNSA is responsible for
               producing the components, such as tritium, necessary to support the Stockpile Plan.
               The objective of this audit was to determine whether the Department's tritium
               production planning was consistent with the Stockpile Plan.

               CONCLUSIONS AND OBSERVATIONS

               As of May 2004, NNSA was planning to produce less than one third of the tritium
               needed to meet the weapons requirements of the Stockpile Plan. NNSA officials
               initially based tritium production levels on an anticipation that stockpile levels would
               be reduced in the near future because of the Moscow Treaty on Strategic Offensive
               Reductions (Moscow Treaty). The Moscow Treaty, signed by the President in May
               2002, states that the U.S. and Russia will reduce their strategic nuclear warheads to a
               level of 1,700 to 2,200 by December 31, 2012.

               During our audit, we identified certain aspects ofNNSA's planning that could have
               presented challenges to meeting its tritium production goals, including: potentially
               delaying the startup of the Tritium Extraction Facility (Extraction Facility) from 5 to
               10 years; and, not assuring the retention of qualified vendors with sufficient specialty
               expertise needed for tritium rod components.
 Near the end of our audit, we learned that a new Stockpile Plan had been developed
 and that NNSA recognized the need to produce more tritium. Following the
 approval of the new Stockpile Plan in May 2004, the NNSA Deputy Administrator
 for Defense Programs gave his approval to initiate planning for production that will
 ultimately result in a three fold increase.

While a new production baseline has not been completed, action in that area has been
initiated. For example, NNSA is coordinating with the companies providing
fabrication of tritium rods, irradiation services, and transportation services to develop
data needed to complete the new baseline. To address other production challenges,
NNSA has initiated an independent assessment of tritium supply and demand that
will be used in reconsidering a delay to the startup of the Extraction Facility.
Additionally, NNSA now plans to track and manage risks to the tritium rod
component supply chain according to the draft NNSA's Tritium Readiness Sub-
program Implementation Plan dated July 30, 2004. Because NNSA now has a
conceptual plan for tritium production levels in line with the Stockpile Plan, we are
not making any formal recommendations.

SCOPE AND METHODOLOGY

The audit was performed between September 24, 2003, and August 25, 2004, at the
Savannah River Site in Aiken, South Carolina; NNSA Headquarters in Washington
D.C; Pacific Northwest National Laboratory in Richland, Washington; Tennessee
Valley Authority Watts Bar Nuclear Plant in Spring City, Tennessee; and WesDyne
International in Columbia, South Carolina. The scope of the audit included NNSA's
tritium production planning from FY 2003 to FY 2030. To accomplish the audit
objective, the audit team researched Federal and Departmental regulations applicable
to tritium production planning and program management; reviewed prior Office of
Inspector General and Government Accountability Office reports related to tritium
and program management; reviewed the construction schedule for the Extraction
Facility; evaluated tritium production schedules and the stockpile requirements plans;
calculated the difference between planned production levels and Stockpile
requirements; and reviewed contract documentation, analyzed funding efforts and
cost estimates, and evaluated performance measures for the tritium production plan.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed internal controls and performance measures
established under the Government Performanceand Results Act of 1993 related to
tritium production requirements. NNSA had established some performance
measures to demonstrate the capabilities for production and extraction of tritium in
FY2007 by beginning irradiation of tritium producing rods in commercial reactors
and completing the Extraction Facility. At the time of our audit, NNSA was making
progress toward achieving these measures. Because our review was limited, it would




                                  2
not necessarily have disclosed all internal control deficiencies that may have existed
at the time of our audit. We performed tests sufficient to rely on computer-based
data. The exit conference was waived by the Director, Policy and Internal Controls
Management on September 21, 2004.




                                      Rickey R. Hass
                                      Assistant Inspector General
                                        for Audit Operations
                                      Office of Inspector General

cc:    Director, Policy and Internal Controls Management, NA-66




                                 3
09/29/04        WED 13:47 FAX 423 241 3897              OIG                            4-,-   HQ          0003

 DOE F 1325,8
 (08-93)
 United States Government                                                          Department of Energy
                                                                                   Department of Energy

 memorandum
         DATE:      September 23,    2004
    REPLY TO
     ATTN OF:      IG-36 (A03SR041)
    SUBJECT:       Audit Report on "National Nuclear Security Administration's
                   Plan'.'                                                     Tritium Production

          TO:      Team Leader, Audit Liaison Division, ME-100


                   Attached is the subject report. Because we are not making
                                                                              any formal
                   recommendations, no actions are required to be tracked
                                                                          in the Department's audit
                   tracking system.

                   We appreciate your cooperation.



                                                 Rickey R. Hass
                                                 Assistant Inspector General for Audit Operations
                                                 Office of Inspector General
                  Attachments

                  cc: Administrator for the National Nuclear Security
                                                                      Administration
09/29/04        WED 13:46 FAX 423 241 3897               OIG                               --*-*   HQ               1002

 DOE F 1325,8
 (08-93)
 United States Government                                                              Department of Energy


 memorandum
        DATE:      September 23,      2004
    REPLY TO
    ATTN OF:        G1-36 (A03SR041)
   SUBJECT:        Final Report Package for "National Nuclear Security Administration's
                                                                                        Tritium
                   Production Plan"

         TO:       Director, Planning and Administration

                   Attached is the required final report package on the subject
                                                                                audit. The pertinent details are:
                   1. Actual Staffdays: N/A
                      Actual Elapsed days: 365
                  2. Names of OTG and/or contractor audit staff:
                      Assistant Director:        Philip D. Beckett
                      Team Leader:               Vincent V. LaBon
                      Auditor-in-Charge:         Brittania C. Melton
                      Audit Staff:               Paulne P.Stevens

                  3. Coordination with Investigations and Inspections:

                      Coordinated with Geofliry Gray of Investigations
                                                                       on September 15, 2004
                      Coordinated with Reginald France of Inspections on
                                                                         September 16, 2004




                                                        Pllip     Holbook,      irector"
                                                        Environmental Audits Division
                                                        Office of Inspector General
                    Attachments:

                     1.   Final Report (3)
                    2.    Monetary Impact Report
                    3.    Audit Project Summary Report
                    4.    Audit Database Information Sheet
09/29/04    WED 13:47 FAX 423 241 3897                              OIG                               -*-.    HQ                                 004




                                   MONETARY IMPACT OF REPORT NO.: DAS- T.-r4 23


            1. Title of Audit:            National Nuclear Security Administration's Tritium
                                                                                             Production Plan
            2. Division:                  Environmental Audits Division

            3. Project No.:               A03SR041

            4. Type of Audit:

            Financial:
                                                                      Performance:       X
              Financial Statement                                       Economy and Efficiency
              Financial Related                                         Program Results                             X
           Other (specify type):

           5.

                                                F
                                                    INDING
                                                        S                                                                 MT.          POTENTIAL
                     FINDINVOIDACE                                                QUESTIONED COSTS                      POSITION        HUDGET
           ()               ()                £M
                                               (C)         (D)          (F)
                           Title                                                             (W)                              ()   "        c(JT
                                               One      Recurring   Qlucstioned   Unsup-     Unre-         otal         CClncur         YYes
                                                im       PerYeAnt                 ported    solved   (I:)-(F)+-()       N=Noncon        N=No
                Tritium Production PIan      None       NonNonc                                                                           NoUn
                                                                                                     None                                 No


           'TOTALS-ALL FINDINGS



           6. Remarks:

           7. Contractor:                                            10. Approvals:                                      __
           8. Contract No.: ___                                      Division Director/Date:
           9. Task Order No.:              _Technical                          Advisor & Date                       -a
 09/29/04    WED 13:48 FAX 423 241 3897                                      OIG                                       -r    HQ                  0007
                                                  Office of the Inspector General (OIG)
                                                Audit Project Office Summary                                   (APS)
Report run on:                    September 28, 2004 3:00 PM                                                                                 Page 1


  Audit#: A03SR041              Of c:       SRA     Title: NNSA TRITIUM PRODUCTION PLAN

              [                             -'                  "***       *-ilestones *            -***
                                                  Planned     End of Survey       Revised                                     Actual
                                                   - - - - -- -------------------------------                               -----------
   Entrance Conference:.....                     24-SEP-03                                         24-SEP-03                24-SEP-03
   Survey:.................                      22-NOV-03                                         09-FEB-04                09-FEB-04
  Draft Report:............
  Completed (With Report):.                      30-MAY-04                 09-FEB-04               22-OCT-04                23-SEP-04   (R
   -------------     lapsed Days:                        249                        138                    394                    365
                                                                Elap. Lees Suap:
  DateDate
       Suspended:
       Supended:                                                                 ____
                                          ate Terminated:
  Date Reactivated:                      Date Cancelled:
  DaysSuspended(Cur/Tot):       (       )Report Number:   OAS-L-04-23
  R_ Title;                              Report Type:     LTR LETTER REPORT
  AUDIT OF THE NATIONAL NUCLEAR SECURITY ADMINISTRATION'S
                                                          TRITIUM PRODUCTION PLAN


             ----      ----
                         ...               __      ***    Audit Codes and Personnel                     ****
  Class;     PER     PERFORMANCE
 Program:    SC3     Not Found
 MgtChall:   106  STOCKPILE STEWARDSHI
  Site:      MSA  MULTI-SITE AUDIT                                                     AD;        327       BECKETT
                reson                                                                 AIC:        728
 iSecMiss:   NNS NATIONAL NUCLEAR SEC                                                 AIC:        7
                                                                                                  180      LMELTON
                                                                                                                ON
                                                                                 n
 PresInit:           Not Found                                                Team Ldr:           180      LABON
                               Found                       _Not               Tech Adv:           432      GAMAGE
                        .___                                   Task Informaton             *g**
       Task No:
       Task Order Dt:                                             CO Tech.         Rep;
       Orig Auth Hrs:                                             Orig Auth Costs;
       CurrenL Auth:                                              Current Auth CostL
       To-. Actl IPR Hr:
                    ToR - lr___                                   Tot AcIt         Cost:


                                                               S***..Time Charges ****
               .Emp/Cont Name                     umdays.                    L"ast Date
                  BOLTON,       II,    F                   8.0               18-SEP-04
                  LABON,  V                               28.8              18-SEP-04
                  STEVENS, P                             155.0              18-SEP-04
                  MELTON, B                              192.8              18-SEP-04
               STotal:                                   384.6         ]
 09/29/04    WED 13:48 FAX 423 241 3897                           OIG                                      **-   HQ               0008
                                      Office of the Inspector General                            (OIG)
                                   Audit          Project Office Summary                            (APS)
Report run on:                September 28,       2004 3:00 PM                                                             Page 2


                                           ****    Keywords.***'*..


                 MOSCOW TREATY
                 NATIONAL NUCLEAR SECURITY ADMINISTRATION
                 NNSA
                 NUCLEAR WEAPONS     STOCKPILE PLAN
                 STOCKPILE PLAN
                 TRITIUM
                 TRITIUM EXTRACTION FACILITY
                 TRITIUM PRODUCTION
                 TRITIUM READINESS
                WEAPONS      REQUIREMENT




    ode     Description-..                             .    :.             .o .....::
                                                                             ..         :.




                                     ***Finding Information **                               Bud M** Deit                  Dee-
  Find#              Title                                        AY                I_                  Po__      Amount   Deat
                   -- ..--           _E              TIxp        Amoiunt       'Yrs Im           Po-e   Pos       Amount   Date
 09/29/04    WED 13:48 FAX 423 241 3897            OIG                        -*44   HQ              1009
                                 Office of the Inspector General (OIG)
                              Audit Project Office Summary (APS)

Report run on:           September 28,    2004 3:00 PM                                        Page 3

                                                     .    .......   .......
                                            Audit Hi-story:

 Audit No:    A03SR041                    History Date:       28-SEP-04
 History Textz
  PB/ ENTERED COMPLETED WITH REPORT DATE.




      ..
   _...                                             ..                                    _   _.._
09/29/04     WED 1.3:47 FAX 423 241 3897                   OIG                             -*- HQ                 0]005




                                  AUDIT DATABASE INFORMATION SHEET


           1. Project No.:                                  A03SR041
       2. Title of Audit:                                   National Nuclear Security Administration's
                                                            Tritium Production Plan
       3. Report No./Date                                   OAS-L-0           September 23 ta

       4. Management Challenge Area:                        106
       5. Presidential Mgmt Initiative:                     N/A
       6. Secretary Priority/Initiative:                   NNS
       7. Program Code:                                    N/A
      8. Location/Sites:                                   NNSA Headquarters in Washington D.C:
                                                           Savannah River Site in Aiken. South Carolina-
                                                           Pacific Northwest National Laborato in
                                                           Richland. Washington: Tennessee Valley
                                                           Authority Watts Bar Nuclear Plant in Spring
                                                           City, Tennessee: and WesDyne International in
                    9.S     g     :                        Columbia, South Carolina
      9. Finding Summary:

                            As of May 2004, NNSA was planning to produce less than
                                                                                           one third of the
                           tritium that would be needed to meet the weapons requirements
                            Stockpile Plan. NNSA officials initially based tritium productionof the
                                                                                                   levels on an
                           anticipation that stockpile levels would be reduced in the
                                                                                        near future because
                           of the Moscow Treaty on Strategic Offensive Reductions
                                                                                        (Moscow Treaty).
                           The Moscow Treaty, signed by the President in May 2002,
                                                                                          states that the U.S.
                           and Russia will reduce their strategic nuclear warheads
                                                                                     to a level of 1,700 to
                           2,200 by December 31, 2012. According to a top NNSA
                                                                                        official, it would
                           have been fiscally irresponsible to produce more tritium than
                                                                                             would be needed
                           to support the Moscow Treaty. However, it should be noted
                                                                                            that the Moscow
                          Treaty did not address the number of weapons to be held in
                                                                                           reserve or lay out
                          a schedule for implementation of the stockpile reduction.
                                                                                         In addition, some
                          aspects of NNSA's planning could have presented challenges
                                                                                             to meeting its
                          trititun production goals, including: potentially delaying
                                                                                      the.startup of the
                          Tritium Extraction Facility (Extraction Facility) from 5
                                                                                     to 10 years; and, not
                          assuring the retention of qualified vendors with sufficient
                                                                                        specialty expertise
                          needed for tritium rod components.
09/29/04   WED 13:47 FAX 423 241 3897                 OIG                            -*-+   HQ              0006




                         During the course of our audit, a new Stockpile Plan containing this key
                         information was issued and NNSA recognized the need to produce more
                         tritium. Following the approval of a new Stockpile Plan in May 2004,
                                                                                                    which
                         incorporated weapons levels consistent with the Moscow Treaty, the
                                                                                                  NNSA
                        Deputy Administrator for Defense Programs gave his approval to initiate
                        planning that will. triple tritium production. At this time, no new production
                        baseline has been formally developed or approved. Currently, NNSA
                                                                                                   is
                        coordinating with the companies providing fabrication of the
                                                                                         tritium rods,
                        irradiation services, and transportation services to complete
                                                                                       the new baseline.
                        To address the other production challenges, NNSA has initiated
                                                                                             an
                        independent assessment of tritium supply and demand that will
                                                                                            be used in
                       reconsidering a delay to the startup of the Extraction Facility.
                                                                                          Additionally,
                       NNSA now plans to track and manage risks to the tritium rod component
                       supply chain according to the draft NNSA's Tritium Readiness Sub-program
                       Implementation Plan dated July 30, 2004. Because NNSA
                                                                                      now has a
                       conceptual plan for tritium production levels in line with the Stockpile
                                                                                                   Plan,
                       we are not making any formal recommendations.


       10. Keywords:
                       Tritium
                       Tritium Production
                       Tritium Readiness
                       National Nuclear Security Administration
                       NNSA
                       Nuclear Weapons Stockpile Plan
                       Stockpile Plan
                       Moscow Treaty
                       Tritium Extraction Facility
                       Weapons requirement
